<html>
<title> - PROTECTING THE RIGHTS OF CRIME VICTIMS</title>
<body><pre>[Senate Hearing 106-434]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-434

 
                       PROTECTING THE RIGHTS OF 
                             CRIME VICTIMS

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON THE CONSTITUTION, FEDERALISM, AND PROPERTY RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

EXPLORING THE ROLE THAT THE FEDERAL GOVERNMENT CAN HAVE IN SAFEGUARDING 
   THE RIGHTS OF VICTIMS AND EXAMINING THE CONSTITUTIONAL RIGHTS OF 
                                VICTIMS

                               __________

                             ST. LOUIS, MO

                               __________

                              MAY 1, 1999

                               __________

                          Serial No. J-106-16

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
63-523 CC                   WASHINGTON : 2000



                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

   Subcommittee on the Constitution, Federalism, and Property Rights

                   JOHN ASHCROFT, Missouri, Chairman

ORRIN G. HATCH, Utah                 RUSSELL D. FEINGOLD, Wisconsin
BOB SMITH, New Hampshire             EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
STROM THURMOND, South Carolina

                      Paul Clement,  Chief Counsel

                  Jeff Miller,  Minority Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Ashcroft, Hon. John, U.S. Senator from the State of Missouri.....     1

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Carol Angelbeck, director, Lewis & Clark 
  Chapter, parents of murdered children, Troy, MO; Mata Weber, 
  parent of a murdered child; Anita and Buck Lawrence, parents of 
  Willie Lawrence, Big Fork, MT; David Lawrence, uncle to Willie 
  Lawrence, son of Lloyd and Frankie Lawrence, Shell Knob, MO; 
  and Retha Lawrence, aunt to Willie Lawrence, daughter of Lloyd 
  and Frankie Lawrence, Shell Knob, MO...........................     4
Panel consisting of Darrell Ashlock, president, Missouri Victims' 
  Assistance Network, Jefferson City, Mo; Kim LeBaron, executive 
  director, Victims Support Services, Kirksville, MO; Joe Taylor, 
  president of the board, Aid for Victims of Crime, St. Louis, 
  MO; Joe Bednar, Legal Counsel, Office of the Governor, 
  Jefferson City, MO; Paul Cassell, professor of law, University 
  of Utah, College of Law, Salt Lake City, UT....................    16

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Anglebeck, Carol: Testimony......................................     4
Ashlock, Darrrell: Testimony.....................................    16
Bednar, Joseph: Testimony........................................    23
Cassell, Paul:
    Testimony....................................................    25
    Prepared statement...........................................    28
Lawrence, Anita: Testimony.......................................     8
Lawrence, Buck: Testimony........................................     9
Lawrence, David: Testimony.......................................    11
Lawrence, Retha: Testimony.......................................    13
LeBaron, Kim: Testimony..........................................    19
Taylor, Joe: Testimony...........................................    21
Weber, Mata: Testimony...........................................     6



                 PROTECTING THE RIGHTS OF CRIME VICTIMS

                              ----------                              


                         SATURDAY, MAY 1, 1999

                           U.S. Senate,    
  Subcommittee on the Constitution, Federalism,    
                                   and Property Rights,    
                                Committee on the Judiciary,
                                                     St. Louis, MO.
    The subcommittee met at 9:30 a.m., at the Old Federal 
Courthouse, 11 North Fourth Street, St. Louis, MO, Hon. John 
Ashcroft (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JOHN ASHCROFT, A U.S. SENATOR FROM 
                     THE STATE OF MISSOURI

    Senator Ashcroft. Good morning. Welcome to our hearing on 
the important issue of protecting victims' rights. I look 
forward to this opportunity to explore the role that the 
Federal Government can have in safeguarding the rights of 
victims.
    This is both an appropriate time and place to have such a 
discussion, and to examine the Constitutional rights of 
victims. It is an appropriate time because today is the last 
day of National Victims' Week, a week of each year that we set 
aside especially to try and think about serious ways that we 
could mitigate the victimization of individuals as it relates 
to criminal behavior.
    The old courthouse is an appropriate place for this hearing 
because of the important role this particular Courthouse has 
played in the struggle for individual rights.
    Back in Washington, DC, the Senate Judiciary Committee has 
been considering a proposed Constitutional amendment to put the 
rights of crime victims on at least equal footing, with the 
rights of those who commit crimes against the victims. That 
proposed amendment, Senate Joint Resolution 3, is cosponsored 
by Senator John Kyl of Arizona and Senator Diane Feinstein of 
California, and has been referred to the Constitution 
Subcommittee.
    This is a hearing of the Constitution Subcommittee of the 
Senate Judiciary Committee. The proposal will give victims of 
violent crime a Federal Constitutional right to participate at 
critical stages in the criminal justice process. I plan to hold 
an executive business session of the Subcommittee the week of 
May 10 to consider the matter further.
    Now, what executive business session of the Subcommittee 
means, is that the bill would be marked up. And when you mark 
up a bill, you consider proposed amendments, you make the final 
adjustments of a particular bill or resolution for purposes of 
sending it to the full committee or ultimately to the floor of 
the Senate.
    And I hope that today's field hearing will help inform that 
discussion, will help shape that final hearing with the 
thoughts and experiences of Americans outside Washington's 
Beltway.
    I, personally, have long supported the recognition and 
protection of the rights of crime victims. For too long victims 
were the forgotten individuals in our criminal justice system. 
As the Warren Court expanded the rights of criminals well 
beyond their original conception, the rights of victims were 
all too frequently ignored. In the name of promoting individual 
rights, the Warren Court sided with criminal defendants over 
State prosecutors, leaving the individual rights of victims 
entirely out of the Court's calculus.
    As a consequence, movements started in many states to 
guarantee victims of crime a place at the table of justice. 
Many States attempted to guarantee victims the essential 
components of ``due process,'' notice of the proceedings 
affecting them, and an opportunity for victims to be heard, as 
well as the prosecutor and the defendant to be heard.
    I had the privilege of supporting this process in Missouri 
during my time as Governor. It was during my time as Governor 
that I signed the law putting the Missouri Victims' Rights 
Constitutional Amendment on the ballot in this State. The 
measure was then approved overwhelmingly by the people of 
Missouri.
    Unfortunately, these State efforts, while critically 
important, fail to provide sufficient protection for crime 
victims. When the Federal Constitutional rights created for 
criminal defendants clash with the statutory framework or the 
Constitution of any State, Federal judges impose and State 
judges are required to impose a Supremacy of the Federal 
Constitution's laws, and as a result, judges are always forced 
to set aside, in a conflict, the State law about victims' 
rights in favor of the Federal regard for the criminal 
defendant's rights.
    The only way to ensure that the victims are treated with 
dignity and fairness is to enshrine the rights of victims in 
the Federal Constitution so that they won't be displaced in 
Federal courts or as a result of Federal rulings by Federal 
judges.
    So, the proposed amendment that we are considering in 
Washington would do that; it would provide enforceable Federal 
rights for victims of violent crime to be present at trial and 
during sentencing, and to have input in parole decisions, and 
to receive notification of a prisoner's release or escape.
    This last March, the full Judiciary Committee held a 
hearing on the proposed Constitutional Amendment in Washington, 
DC. At that time, I raised two concerns about the proposed 
amendment that I would like to explore at today's hearing:
    First, I am concerned that the proposed amendment fails to 
provide any explicit rights to the victim when an executive 
commutes the sentence of a convicted criminal. At every other 
critical stage in the process from the trial, to sentencing, to 
release--the amendment guarantees victims the right to notice, 
and where appropriate, the right for an opportunity to be 
heard.
    It just doesn't make sense to me to provide these important 
rights to victims when the court imposes the original sentence 
and when the parole board considers deviating from the 
sentence, but to deny this same opportunity or right to them 
when an executive considers reducing the sentence with a stroke 
of his pen.
    What good does it do to amend the Constitution to guarantee 
a right to be present at sentencing if the State retains the 
right to revisit and to revise the sentence without notice to 
the victims?
    This is, in my judgment, an omission in the law that is 
worth rectifying. The recent experience of the Lawrence family 
has made clear the profound impact that a commutation can have 
on the victims of crime. I am grateful that members of the 
Lawrence family asked to testify at any victims' rights hearing 
to share their tragic personal experience, and I'm pleased as 
well, that representatives of the organization of Parents of 
Murdered Children, a victims advocacy group, have been able to 
join us as well.
    I know that all of you have to wrestle with the serious 
problems that these tragedies revisit for you, but I appreciate 
the fact that you are willing to endure that kind of 
discomfort--to use a word that is inadequate to explain what is 
happening--in order to try and help avoid it for other people.
    The second concern I have about the proposed Constitutional 
amendment we'll be addressing today is that it limits its 
important protection to the victims of violent crime. While 
violent crimes certainly bring home the need to protect 
victims, there are victims of nonviolent crimes, crimes like 
major elderly fraud where people lose their homes or where 
there are serious nonviolent affronts to individuals that 
deserve our protection as well.
    The Warren Court certainly did not distinguish between 
violent and nonviolent crimes when it created the rights for 
criminals. That doesn't seem to be any better basis for making 
a distinction between violent and nonviolent rights of crime 
victims.
    Indeed, the victims of some nonviolent crimes, such as 
fraud where criminals carefully select their victims to prey on 
the elderly or the ailing, are among the most deserving of 
protection. Victims of elder-fraud and identity theft should 
not be left unprotected.
    Our second panel this morning will include the discussion 
of this issue, as well as the application of the proposed 
Constitutional amendment to cases of domestic crime.
    The tragic experiences of crime victims underscore the need 
for vigorous protection of the rights and interests of 
individuals who have been the victims of criminal activity. 
Frankly, there are very few Government functions that are more 
important than helping the people who are victims of crimes. 
The proposed Constitutional amendment makes necessary strides 
to guarantee victims a seat at the table to ensure that the 
rights of criminal defendants are not the only individual 
rights considered by judges and parole officers.
    However, there is still room for improvement, and I hope 
that today's hearing will help us move forward in an effort to 
improve this amendment that we ultimately hope to enshrine as a 
part of the Constitution of the United States. We can work 
together to provide crime victims with the full measure of 
protection they need and deserve.

 PANEL CONSISTING OF CAROL ANGELBECK, DIRECTOR, LEWIS & CLARK 
 CHAPTER, PARENTS OF MURDERED CHILDREN, TROY, MO; MATA WEBER, 
PARENT OF A MURDERED CHILD; ANITA AND BUCK LAWRENCE, PARENTS OF 
WILLIE LAWRENCE, BIG FORK, MT; DAVID LAWRENCE, UNCLE TO WILLIE 
 LAWRENCE, SON OF LLOYD AND FRANKIE LAWRENCE, SHELL KNOB, MO; 
AND RETHA LAWRENCE, AUNT TO WILLIE LAWRENCE, DAUGHTER OF LLOYD 
              AND FRANKIE LAWRENCE, SHELL KNOB, MO

                  STATEMENT OF CAROL ANGELBECK

    Senator Ashcroft. It is pleasing now for me to have the 
opportunity to call up the witnesses for our first panel.
    Our first witness this morning is Carol Angelbeck from St. 
Charles, Mo. Ms. Angelbeck is the leader of the Lewis & Clark 
Chapter of Parents of Murdered Children.
    Tragically, Ms. Angelbeck's daughter, Mindy Griffin, was 
murdered on September 30, 1995. She has been active on the 
issue of victims' rights ever since.
    Ms. Angelbeck, thank you for coming to share your 
experiences with us, and we look forward to learning from you. 
Would you proceed with your testimony at this time.
    Ms. Angelbeck. Thank you, Senator Ashcroft. Thank you for 
allowing me to speak. When our 24-year-old daughter, Mindy 
Griffin, was found raped and strangled in her Lake St. Louis 
condominium on September 30, 1995----
    Senator Ashcroft. Can I interrupt you for a minute? Can 
staff do anything to elevate the sound? Are these for 
recording? These are not going to do anything then to help 
people in the room, so if you could, please speak up. It seems 
like people in the room are having trouble hearing, and I want 
people to hear your testimony. Pardon me. These will record the 
testimony, they are not amplifying your voice.
    Ms. Angelbeck. Do you want me to start over?
    Senator Ashcroft. Please do.
    Ms. Angelbeck. When our 24-year-old daughter, Mindy 
Griffin, was found raped and strangled in her Lake St. Louis 
condominium on September 30, 1995, by a complete stranger, my 
world stopped. I couldn't breathe, sleep, eat or do any of the 
normal, everyday tasks that we take for granted.
    The pain that a mother or father feels when the loss of a 
child occurs, especially with the violence of rape or murder, 
it's like a scream starting in your very soul, and it moves 
like a wave in the ocean, getting larger and larger until your 
whole being is engulfed in this pain.
    It is like watching my life from a distance. I have no idea 
how I made it through the wake and the funeral. I assume shock 
helps us make it through this hard time.
    I remember seeing Mindy lying in a coffin for the first 
time; also, Mindy's body being removed from her condominium in 
a body bag. I just knew it couldn't be my daughter, the baby 
that I brought into this world. Then, the reality hits you in 
the face, the first meeting with the police to identify items 
of my daughter's.
    The first time you are in court with the criminal justice 
system, everything is overwhelming. The same question keeps 
going through your mind: Why, God, why my daughter? I asked the 
police why that Sunday, and they said that Mindy was in the 
wrong place at the wrong time. I ask: Is being in your own home 
the wrong place at the wrong time? I do not think so.
    We are no longer safe in our own home in our country. The 
city where Mindy lived had never had a homicide in the 20 years 
it was a city.
    We went through 3 years of living hell, with our minds 
fluctuating between why Michael Shane Worthington picked our 
daughter, and why did she have to die alone, and such a violent 
death. Our coroner said in court that it takes 4 to 7 minutes 
to die by strangulation, and Michael Worthington testified in 
court that he strangled Mindy twice.
    We went through three judges, many court delays caused by 
the defense attorneys. Joel Eisenstein was the first. He lost 
his license due to a Federal tax problem. Then came Rosenblum, 
Kessler, and Green. Mr. Green tried to make a deal with Judge 
Cundiff behind our back. That is the day I fully realized what 
our criminal justice was all about.
    We never had any dealings with the court and lawyers, so it 
was quite a shock for us. St. Charles prosecuting attorney, Tim 
Braun, our Prosecutor Ross Buheler, and victims assistant 
Maggie Lipman, have been very, very helpful during the 3 years. 
They kept us informed of all the court hearings.
    When Judge Cundiff offered a plea for life, we were told, 
and we requested a meeting with the judge. Mr. Braun and Mr. 
Buheler set up this hearing, and when I asked Judge Cundiff why 
he offered to plea for life instead of death, his exact words 
to me were he wanted the SOB to stand up in front of him and 
tell him what he did to my daughter. And I asked him: Did you 
look at a crime scene photo? Did you read the police reports? 
Did you read the coroner's reports? He answered ``no'' to all 
these questions. I said Judge Cundiff, you would know what he 
did to my daughter if you had done one of these three.
    I realized again the games that are played between judges 
and attorneys. The Judge asked if we would like him to remove 
himself from the case, and I said ``yes.'' This resulted in a 
9-month delay. It is important for victims to be included in 
the justice system and to be able to work closely with the 
prosecutor attorney's office.
    In Missouri, we have a good Victims Program. House bill 
325, if passed, would allow victims to be in the courtroom even 
if they are to testify. Missouri victims' rights is supposed to 
do mandatory notification if anything changes with the inmate.
    However, I believe it is just like the judges, the defense 
lawyers, and the prosecuting attorneys: They need to be 
educated also regarding victims' rights.
    It is often easier for them not to get involved with the 
victims. I understand in a capital murder, the court or the 
prosecuting attorney's office is to give information for 
notifying families of any changes. However, as a victim myself, 
I feel I should also be responsible for giving this information 
to the Attorney General's office to make sure they have a way 
to contact us of any changes.
    My husband and I are submitting an initiative petition to 
the Secretary of State for approval to form for the proposed 
Constitutional amendment, which would prohibit a Governor from 
being able to commute a death penalty. I feel when all appeals 
have been met, and no new evidence has been brought forward, 
there is absolutely no reason to detain or commute a death 
penalty.
    Victims should have the right to testify in person before 
the jury, as the defendant is in the courtroom for the entire 
trial, and also have the right to take the stand in his own 
defense.
    However, the Victims' Rights Amendment has to be enforced. 
We need to make the judges and attorneys aware of these rights. 
There has to be a way to ensure the victims' rights are carried 
out in all of our communities.
    We have approximately 60 members of the Lewis & Clark 
Chapter of POMC. Some are new in grief; for others of us, it 
has been a few years. However, we all have times when we need 
to feel the need to lean on each other.
    I believe we need to have much stronger laws for victims' 
rights. We must find ways to enforce the Victims' Rights 
Amendment, and to make sure all judges and attorneys--both 
prosecutors and defense lawyers--are aware and uphold the 
amendment to assure that the victims have the same rights as 
the defendant.
    After all, we are the ones who will spend the rest of our 
life living without our loved one, and will have to find a 
place in our heart and soul to go on with life, and to help 
others who suffer the greatest tragedy in life, which is the 
murder of our loved one.
    Thank you, very much.
    Senator Ashcroft. Thank you, Ms. Angelbeck.
    I understand we also have a chapter leader of the St. Louis 
Chapter of the Parents of Murdered Children with us this 
morning, Ms. Mata Weber.
    Ms. Weber, I would be very pleased for you to add anything 
that you would like to add to the record by virtue of remarks.
    Please direct your voice to the microphone. We need for you 
to speak up.

                    STATEMENT OF MATA WEBER

    Ms. Weber. Thank you, very much, Senator, for being here, 
and for allowing us to be here and speak to you.
    My name is Mata Weber, and I am a parent of a murdered 
child. My daughter, Karen, was 21 years old. She was murdered 
April 27, 1982, in Madison County. She was kidnaped from her 
place of business, driven 15 miles to the Livingston Reservoir 
where she was very cruelly murdered.
    She left two children; they were two and three at the time, 
and how do you tell a child that their mother is never coming 
back? It's been the worst thing that has ever happened to me in 
my entire life. And if you talk to anyone who has had a loved 
one murdered, they will tell that also. You can have a death in 
the family, you can have a divorce, you can have illness. 
Nothing is as bad as having your child or your loved one 
murdered.
    We were fortunate, if I can use that word, to say that we 
came in contact with very sensitive and kind police, District 
Attorney, support people from the Victims Service in Madison 
County. I ended up with people's home telephone numbers. If I 
needed to call the prosecutor with a question, he was always 
there.
    I don't know that the murder of my daughter made a 
difference with them or not, but they were very good to me. We 
went to trial right away. Supposedly, this man's attorney 
didn't believe he was guilty. We went to trial--Karen was 
murdered in April; we went to trial in September.
    The jury found him guilty of first-degree murder, gave him 
50 years, and when I walked out of the courtroom, I said to the 
prosecutor well, maybe now I can get on with my life. He said, 
oh, no, you're going to hear from this guy soon. I said what do 
you mean? His first appeal will be about 3 years from now.
    Well, it was almost 3 years to the day. He won an appeal 
for a brand new trial. So we had to go through the same thing 
over again. It took a whole year because he was trying to say 
that the evidence that convicted him the first time, there was 
an error in it. So he sent the blood work to California, 
looking for some changes, something wrong with it.
    At the end of the year, the judge said we've delayed long 
enough, we're going to go to trial. So his attorney approaches 
and asks for a plea bargain. Well, in 1982, we had no victims' 
rights, so most of us didn't know anything about what was going 
on in the justice system.
    You could not tell the jury where this man had been for 3 
years. You could not tell the jury that this is the second 
trial for the same offense for this man. Many things were not 
going to be allowed in the second time. So I agreed to a plea 
bargain: For 25 years, this man would stand in front of me and 
tell me that he murdered my daughter.
    But in the state of Illinois at that particular time, 25 
years didn't mean 25 years. You got 1 day off for every day you 
served in prison. So, in June 1994, this man walked out of 
prison, free and clear on a murder charge.
    It's been the most horrible thing that has ever happened to 
me my entire life. I joined Parents of Murdered Children in 
1985, one of the original people. I am now the chapter leader. 
We probably have spoken to somewhere between 500 and 1,000 
people in all this period of time, listened to their stories.
    People come to the meetings, sometimes just once. People 
come off and on, and some people are there every single month. 
They need some support; they need to know that every time they 
walk in that room, you know how they feel, you know what's 
going on.
    All of you people in this room can tell Carol and I and the 
families--the Lawrence family, that you understand, and you 
know what we're going through, but you don't. You have to have 
a child or a loved one murdered to know what we're going 
through.
    I'm here today for this Constitutional Amendment. We have 
to work harder on it. I'm not sure of the time, but I think it 
has been worked on now for 5 years. How much longer is this 
going to take to get us victims' rights on the Federal level? 
We don't want anything elaborate, we just want plain simple 
rights.
    It's true right now, in the state of Missouri and Illinois, 
if a prisoner is paroled, they will contact you. But that's 
only if you contact the Department of Corrections first. How 
about if they send the prisoner back and forth through the 
prison system? Nobody lets you know about that. You're not 
allowed to know if they've been transferred. We'd like to have 
that right, too. If they're going to release him, then they 
will let us know that. If they're going to commute his 
sentence, we don't have a right to know that, and we want to 
know.
    All of us here are victims. Remember our faces, and try to 
work harder to get this amendment passed. Thank you, very much.
    Senator Ashcroft. Ms. Weber, I am sorry. I think I 
mispronounced your name.
    Ms. Weber. That's OK.
    Senator Ashcroft. It is Mata, and I did not mean to do 
that, and I do not know why I would have said that. I 
apologize. Thank you for being willing to come and help us this 
morning.
    Our next witnesses are Buck and Anita Lawrence. The 
Lawrences are parents of Willie Lawrence, and live in Big Fork, 
MT. Buck is the son of Lloyd and Frankie Lawrence. I deeply 
appreciate their willingness to share their tragic story, and I 
call upon Anita to go first and Buck to go second.
    And after that, I will call upon other members of the 
Lawrence family. Please pull that microphone close to you so 
that we can record what you are saying.

                  STATEMENT OF ANITA LAWRENCE

    Ms. Lawrence. I'm glad I have the opportunity to testify 
here today to keep another family from going through what we've 
just had to go through.
    My name is Anita Lawrence. I'm the mother of Willie 
Lawrence. Willie was killed on May 15, 1988. He was killed 
because, the killer's words, ``He would have recognized me.''
    Willie was 19 and was paralyzed from the waist down from a 
car accident. Willie loved life, and when he was in the 
hospital, the nurses recommended that we further some kind of 
education for him to help other people because of his good 
outlook that he had and his good attitude about being 
paralyzed.
    And he loved his grandparents, and on a particular 
occasion, he had went down to West Fork with his grandparents, 
and they just happened to be at the wrong place, I guess.
    Senator Ashcroft. Just take your time.
    Ms. Lawrence. He left a note on the refrigerator that he 
was with his grandparents, and I have never seen him after that 
day, that morning I left home. He had spent the night down at 
West Fork with his grandparents, and Retha went down the next 
day at 2:20 on Sunday afternoon, and she found them. All had 
been murdered.
    So she called Buck, and Buck looked around and told me and 
Linda that it was the worst nightmare that we could ever 
possibly think happened.
    Then we went--after they arrested Mease, he went to trial. 
We attended every day. And one day, they asked us to step out 
because the guy that done the autopsy was going to do the 
testimony, and they told us that it was so bad that we didn't 
need to hear how he looked.
    They never showed the photographs publicly; only Retha and 
the jury ever seen the photographs. The jury took a week, and 
they made the decision, and they give him the death penalty. We 
were happy with the verdict from the jury.
    We expected the system to work for us. When it come time to 
put Darrell to death, then that would close the book. We could 
put it on the shelf and try to get on with our lives.
    But as you know, that didn't happen, because Mr. Carnahan 
opened it back up for us when he commuted Darrell. And we found 
out on January 28. We were visiting friends, and we sat down to 
watch the evening news with our friends. They always watch 
Jeopardy. So we watched Jeopardy, and then we watched the 
evening news.
    And then when the news come on, the first thing on the news 
was Mease walking through in his orange suit with a smile on 
his face. And then, they showed a picture of my mother-in-law 
and father-in-law and my son on their four-wheelers at the 
scene. We had never seen this picture. I had never seen 
Willie's body. I had never seen Willie in that condition, and 
it was a nightmare.
    I had nightmares for a week afterwards. I would actually 
get up and have to go to the bathroom and throw up. I had to 
see a doctor, and take tranquilizers just to get me through it. 
I'd walk the floor. My emotions was just--I don't know how to 
explain it.
    The other mothers here know how I felt. I think that if the 
Governor would have just took the time to look at the pictures 
and heard our side; if he had just talked to us, I think it 
would have made a difference on how the case would have come 
out.
    If he would have just called us and gave us a warning to 
let us know what was going--what would be showed on TV, maybe 
we wouldn't have had to watch the news to find out--to see 
those.
    At least if he would have called, I could have spoke in 
Willie's behalf. I feel that the Governor ignored the victims' 
side of this. It's like he don't care about us. He don't care 
about us as a family and what we've had to go through.
    All we are asking is that the next family at least be given 
the chance to be heard from. That the decision of the Governor 
may not be changed; at least, we would be able to say that we 
tried to have justice done, rather than having to say we were 
left completely out of the process.
    We had a promise from the judicial system that we thought 
was going to work with us that Darrell Mease was going to get 
the death penalty, and it's hard to live now with the fact that 
he's not. Thanks for letting me be here.
    Senator Ashcroft. Well, I thank you for working so hard to 
get through that, and while none of us can fully understand, we 
are at least aware in some measure of how difficult this is for 
you.
    Mr. Lawrence.

                   STATEMENT OF BUCK LAWRENCE

    Mr. Lawrence Buck. Thank you, Senator, for allowing us to 
be in this hearing on the issues of victims' rights to be 
notified.
    My name is Buck Lawrence, and my son Willie was murdered on 
May 1988. At the same time, my father and mother were also 
murdered. The guilty received a sentence of death from the jury 
that heard the case. That sentence was upheld in every court 
hearing during the past 10 years. Then, with no forewarning to 
us, the killer's death sentence was commuted by the Governor of 
Missouri.
    I sat through the trial. The testimony showed that early in 
the morning of May 15, 1988, Darrell Mease constructed a blind, 
and cut tree branches and placed them in a semi-circle near a 
large tree about 15 feet from a road leading from the Lawrence 
cabin to where the road forded a small creek. Mease hid in the 
blind for several hours.
    About noon, my son and my parents approached Mease's 
position, riding four-wheel, all terrain vehicles. Willie was 
driving fast and was the first to pass Mease's position. 
Because Willie was paralyzed due to a 1986 car accident, his 
feet were tied to the handlebars by the shoe laces to keep them 
on the vehicle.
    Some distance behind him and driving slower, were my 
parents Lloyd and Frankie. Both were riding on one vehicle. As 
my father came even with Mease's location, Mease shot him, then 
my mother, then my father again, using a shotgun loaded 
alternately with buckshot and slugs. Their vehicle went forward 
slowly and came to a stop in the creek.
    At that point, Mease came out of the woods. By that time, 
my son Willie had turned around and was returning toward the 
scene. It was then that Mease shot Willie using a 12-gauge 
shotgun still alternately loaded with double-aught buckshots.
    Mease then shot my mother, father, and son in the head at 
pointblank range. Mease took my father's wallet, a watch, and 
two rings. My father's money, $600, was removed from the 
wallet, and the wallet was hidden under a log.
    Mease later confessed to all the killings, and stated he 
killed Willie because Willie would have recognized me, and I 
had to do him, too. Mease was given a death sentence by the 
jury, and that sentence was commuted by the Governor.
    At this hearing today, I will tell you how I came to know 
about commutation, and how that hurt myself and my family. As 
Anita stated earlier, we were visiting some friends at their 
home in Montana on January 28, 1999. We all sat down to watch 
the evening news. Then, to our amazement, the news anchor 
announced that the death sentence of Mease had been commuted at 
the request of the Governor.
    Then the news program showed photographs of the scene of 
the murder. We had never seen these photographs before. I was 
in shock. I really feared at the same time for my wife. She's 
in very bad health. I looked over at her, and it was just like 
when we had initially been told.
    We just couldn't hardly think at all. We wondered how could 
this happen to us? I could only think why we would have not 
been notified of something like this. I couldn't believe the 
system had failed like that.
    It was, like I said, bad as when we first learned of the 
news of the killings. It brought back so many emotions as when 
we were just told. I wish the Governor would have called. He 
wouldn't have wanted to do a commutation after he talked to us. 
I could have told him how many lives was destroyed, and that he 
was going to do this all over again if he did this.
    What did we do to him for us to get this kind of treatment? 
It was a complete violation of us to have to hear of this 
without even getting a chance to voice our opinion. We're never 
going to be the same. Our intentions for this whole thing is to 
make sure no other family has to deal with these things.
    It's terribly unfair for the Governor to rattle off as he 
did, but then to say he's exempt from it to do whatever he 
wants to do or to say, this law doesn't pertain to me. By not 
getting any notice beforehand, we were not even able to talk 
about this as a family before the numerous news media calls 
came into the family members.
    The news media knew about it before we did. That's how we 
found out about it like we did, was through the news. I, for 
sure, thought the system would carry out whatever punishment 
was recommended by the jury. Whatever the jury said was 
something that was OK with us. We couldn't change their 
verdict.
    But once the jury did give him the death sentence, we were 
required to go along with the punishment, and that should be 
carried out. We didn't think we had to do--to do anything to 
make the system work. During that time the punishment was 
imposed, the family endured a week-long trial. I attended that 
trial each day. We had to walk right by the killer. That was 
pretty rough.
    What we're asking is that the next family not have to learn 
about it the way we did. We're now going to crave justice for 
the rest of our lives. And that's all. Thank you, Senator.
    Senator Ashcroft. Thank you, Anita, and thank you, Buck.
    There are other members of the Lawrence family here today, 
David Lawrence and Retha Lawrence, and I would welcome their 
comments at this time, if they would like to add anything.

                  STATEMENT OF DAVID LAWRENCE

     First of all, I'd like to thank you, Senator Ashcroft, for 
allowing me to appear up here today before this Committee. I 
wish the circumstances had not brought me here, but--I would 
prefer that just took its course, and I was back home in Shell 
Knob. But I feel it's necessary that I be here today.
    Again, my name is David Lawrence. I'm the uncle to Willie 
Lawrence. Lloyd was my dad, and Frankie was my mom. On May 15, 
1988, they were rudely murdered by Darrell Mease. This was the 
beginning of a very trying time for our family.
    After sitting through a jury trial which I attended every 
day, I was accepting the jury's punishment. It really wouldn't 
have mattered at the time if Darrell Mease had received life in 
prison without parole, or the death sentence. Of course, 
everyone knows he received the death sentence.
    For 10 years, we lived with that. We learned to live with 
the fact that he would be put to death. Then there was a turn 
of events, events that turned our family upside-down. And this 
is something that could have been avoided if someone would have 
made just one phone call to any of our members. I'd like to 
tell you how I heard about the situation of his being commuted.
    I was called by a friend in Chicago, Diane Karmas. She 
asked me to turn the TV on to World News, the CNN Headline 
News. She said there was something on there about our mom and 
dad and Mease. While she was telling me these things, I'd 
turned the TV on to CNN News, and sure enough, they were 
showing something on there about Mease and our folks.
    Well, I have call waiting and there was a call coming in, 
so I asked Diane to hold on for a minute, and I took the call, 
and it was the media. They asked me how I felt, what my 
reaction was to the Governor's decision. And I told them, I 
said, you're going to have to wait a minute. I said, I'm just 
now hearing about.
    At this time, I couldn't make a statement. In fact, 
everything just started spinning. I was confused as to what in 
the world is happening. And so--and another thing, how can this 
be going on?
    So, when they said they was going to put him to death, 
again, all of a sudden, things were not going right. Again, it 
took us a long time to prepare mentally for what was going to 
take place, and we're talking a 10-year period here that we 
prepared ourselves for this.
    And then whenever this come up, it actually puts you in 
shock; you don't know what to do. And one thing that does 
happen is that your mind starts going back to May 15, 1988. 
You're right back there on the crime scene again. And something 
like that will probably never leave a person.
    Today, as we have tried talking about this, the emotions 
are still there after all these years. We continued on that 
afternoon. Diane got a hold of me around 2 o'clock, and from 
that point on, the phone continued to ring. We had calls coming 
in from California, New York, Texas, Chicago, Kansas City, St. 
Louis, many of the local stations, TV and radio. They was all 
trying to get a hold of us. The phone calls continued to come 
in until 10:40 that night, we took our last call.
    And, of course, we had a pretty rough night, not much 
sleep. And at 5:40 that morning, the phone calls started coming 
in again, and they continued throughout the day. And so--I 
mean, this was--it was really pretty hard to deal with. You 
don't know, at first, what to say because of the shock that 
you've been put in.
    But then, as the day goes on, your mind starts clearing up 
a little bit, so I did make a few statements throughout the 
day. But there is one point that I'd like to make: We lived in 
Shell Knob all of our lives. Linda and I have had the same 
phone number for 20 years. She's a postal employee; my sister 
works at the post office; I'm a part-time worker at the post 
office. All three of us have businesses in Shell Knob.
    We are not hard people to get a hold of. So, all it would 
have taken would have been a simple phone call. And had we had 
that chance, if someone would have called us, we would have had 
the opportunity to talk together as a family , but we didn't 
have that chance.
    It would be of great service to anyone in the same 
circumstances or similar circumstances not to have to go 
through the shock, the anxieties, the stress that something 
like this causes. It really turns your life upside down. And 
all it would have taken would have been one phone call to any 
one of the family members. Thank you, Senator.
    Senator Ashcroft. Thank you. Retha.

                  STATEMENT OF RETHA LAWRENCE

    I would like to take this time to thank you, Senator 
Ashcroft, to listen to us, and I appreciate the time and effort 
that has been put forth here. I hope that something like this 
will never have to happen to anyone else. No one, no living 
human being should have to go through what we have gone 
through.
    My name is Retha Lawrence. I'm the daughter of Frankie and 
Lloyd. Willie is my nephew, and I am the one that found them. 
About 2:20, May 15, 1988, I was on my way down to our vacation 
area. I'm a single person. I had a little schnauzer dog with me 
that day; her name was Colby.
    And I stopped at the top of the hill and got an ice cream 
cone. I was driving down to our cabin. We had certain gates to 
go through; I went through. And I talked to Colby just like who 
she was, part of the family, you know.
    I come around the corner, and when you come around the 
corner, it drops down into the creek, and I said there they are 
Colby. And I realized what I had found. I went on up, and then, 
within a split second, I knew what I had found.
    My mother and my father on one four-wheeler, shot to death, 
and my nephew on another, shot to death.
    It's funny what the mind will do, because at that point, 
from the tip of my toes, I felt heat. It went from the tip of 
my toes to the top of my head. I thought I was going to 
explode. I realized many years later that I had gotten out of 
that car that day, and I walked up to see my mother and my 
father.
    They were shot in the face. My father's head was gone; my 
nephew Willie's face was gone. This man had killed my mother 
and my father and my nephew, point-blank range. He shot them in 
the face.
    It has taken me 11 years, Mr. Ashcroft, to deal with this, 
and as you can see, it's not easy. I work for the Postal 
Service; I have for 11 years. I've lived in Shell Knob my whole 
life, 38 years.
    My grandfather homesteaded there at the turn of the 
century. The Lawrences are well known, and have been since 
1900. We are not a hard people to find. I have a commercial 
business, along with my brothers and sisters there. So a phone 
call would have helped.
    And coming up to the commutation of Mr. Mease. The way I 
found out about it was through a phone call. Like I said, I'm a 
mail carrier, and I work many hours a day. I have my own 
commercial business, so I work several hours through the day. 
And when Mr. Mease was given this death sentence, I fully 
expected it to be carried out.
    It wasn't something that the family would talk about. We 
wouldn't sit around and say this guy--oh, this guy is going to 
die; we're going to get justice. This was a painful subject. 
Our family did not wish to sit around and talk about it. It's 
just something that you don't do. But we prepared for 11 years 
that the sentence would be carried out.
    I was a witness at the trial. I was the first witness on 
the stand, and I sat there for a week. The first day I went in, 
they give me some pictures of the crime scene. And we were 
standing up there prior to the trial, and they asked me to 
review these pictures. I did.
    They handed me one picture of Willie, and they said Retha, 
can you identify this? And I remember distinctly, I shoved the 
picture back and I said, can you? So, I sat there at the trial, 
and they handed me these pictures again, asking me to identify 
Willie. As they passed me the pictures, they would take them 
and pass them to the jurors. There was 12 jurors there who had 
also sat there for a week.
    And as the pictures was passed around, you could see they 
would break down. They would break down, and you could see that 
they was nauseated at what they had saw. So, they sat there for 
a week, my family sat there for a week, all the law 
enforcement, all the investigations that had gone on for a 
year. And the one day, Mr. Ashcroft, one man took all of this 
and put it in a waste can. And that's how we feel.
    We feel that we're not that important. My family members 
were ambushed. My family was ambushed the day of the 
commutation. That's how we felt. When I learned of the 
commutation, I was on my mail route. I was training a sub, and 
my brother Dave called me on the cell phone. He said baby, 
where are you? I said, I'm at the end of my route, and I'll be 
coming in.
    He said don't turn the radio on. He said there's something 
I've got to tell you. Are you alone? No, my sub is with me. So, 
he told me what had happened. And you just don't know what to 
do, you know. Here you have this person with you that's so meek 
and mild, my sub, and she said what's wrong?
    And I just put my hand up, and I said I can't talk. And I 
felt, Mr. Ashcroft, that very same way. I felt the heat from my 
toes, and it went to the top of my head. Finally, I stopped the 
truck, and just got out. I wanted to run. But there really 
wasn't anyplace to go.
    So, I came back and finished my route, and went to Dave's. 
And from that point, for 2 weeks after, I had someone with me 
for 24 hours. The media did call, and I said how did you get my 
number? How did you find me? She said it only took about 5 
minutes to get a hold of you. I said oh, OK, I was just 
wondering because I had talked to the Governor's office, I 
guess, 1 day or 2 later--time kind of got away from me; I 
didn't really know.
    But I had talked to the Governor's office, Mr. Bednar, I 
guess was his name, I don't really remember--and he wanted to 
apologize for not contacting us. He said, we've tried for 
several months to get a hold of you. Well, I'm sorry, but 
that's the lamest excuse I ever heard in my life.
    Like I said before, we have commercial businesses. If he 
had wanted a hair cut, if he had wanted carpets cleaned or his 
mail delivered or even a bag of cotton candy, all he would have 
had to do was pick up a phone. We didn't get that, and I feel 
that we deserve that.
    We deserve--here at this table, all of us deserve a little 
bit of respect on that matter. It's bad enough to have to lose 
a family member, three family members, any family members.
    It's only human respect to be able to pick up a phone and 
be able to show a little bit of human compassion instead of 
saying, I didn't give it a second thought, Mr. Carnahan's 
words.
    Well, we've given it a second thought. We've thought about 
it for 11 years. The book was almost closed; Mr. Mease was 
going to be executed, and then for some unknown reason--who 
knows--it was all put in the trash.
    Our wounds were opened again, and I hope and I pray that it 
doesn't take another 11 years for this to heal. As you can see, 
my family has gone through hell for the last 11 years, and I 
hope that through this meeting, this hearing, that no one will 
have to go through this again.
    I would beg and pray that we could at least get a phone 
call. I'd like to thank you, Mr. Ashcroft.
    Senator Ashcroft. I'm sure that every person appreciates 
very much the fact that you would be willing to come and share 
with us what is clearly a serious pain for you, and your 
testimony just makes crystal clear the need to protect the 
rights of crime victims.
    And the Lawrence family's testimony demonstrates the need 
to extend the protections in the proposed amendment to cover 
commutations. What I heard you say is that commutation 
needlessly had an effect that, because of the surprise of it, 
was aggravated and intensified.
    This is one of the issues that we'll take up when we mark 
up this Bill at the executive business session committee on the 
week of May 10. I have discussed, particularly, the commutation 
matter, broadening the amendment to cover commutations with the 
sponsors and Senator Kyl.
     And Senator Kyl has indicated to me that he believes that 
it should be broadened at the Federal level. And, of course, at 
the Federal level it would cover these types of situations. 
What is important about this hearing today is that when Senator 
Kyl and I explain the need to extend the provisions of the 
proposed amendment to commutations, your testimony, your 
circumstances will support that effort and in real life terms, 
will help Senators to understand why it's important to have 
that extension.
    So, we will try and keep you posted about the progress that 
is made on this matter, and we will work on the development of 
this improvement to the proposal, which I think in large 
measure has been advanced by your own appearance and your 
testimony.
    The hearing will now take a short break, and I will escort 
the first panel from the chamber, if they choose to leave. I 
would ask that as I am doing that, the second panel assemble 
and begin to get ready for the testimony when we reconvene in 
about 5 minutes.
    [Recess.]
    Senator Ashcroft. Thank you for helping reconvene the 
hearing. On our second panel, it's my pleasure to introduce a 
group of notable individuals with direct awareness and 
knowledge of this topic whose testimony should be valuable to 
us in constructing and developing the improvements and 
implementation of our effort to place before America an 
opportunity to ratify an amendment regarding victim's rights.
    Our first witness on this panel is Darrell Ashlock, who 
serves as president of the Missouri Victim Assistance Network, 
and also serves as Director of the Victim Services in Buchanan 
County over on the western side of the State.
    Mr. Ashlock was active in the drive to pass the Victims' 
Rights Amendment, and has been helpful to me in my office in 
dealing with crime and victim's issues. We're grateful to you 
for your assistance, and we look forward to your testimony in 
this respect. Mr. Ashlock.

   PANEL CONSISTING OF DARRELL ASHLOCK, PRESIDENT, MISSOURI 
 VICTIMS' ASSISTANCE NETWORK, JEFFERSON CITY, MO; KIM LeBARON, 
 EXECUTIVE DIRECTOR, VICTIMS SUPPORT SERVICES, KIRKSVILLE, MO; 
 JOE TAYLOR, PRESIDENT OF THE BOARD, AID FOR VICTIMS OF CRIME, 
    ST. LOUIS, MO; JOE BEDNAR, LEGAL COUNSEL, OFFICE OF THE 
 GOVERNOR, JEFFERSON CITY, MO; PAUL CASSELL, PROFESSOR OF LAW, 
     UNIVERSITY OF UTAH, COLLEGE OF LAW, SALT LAKE CITY, UT

                  STATEMENT OF DARRELL ASHLOCK

    Mr. Ashlock. The first thing I'd like to say is, my heart 
goes out to those folks that went before us, and I've been 
fortunate that I've never had to experience that type of pain, 
and pray that those others who haven't experienced it don't 
have to go through that. And my heart certainly goes out to 
those folks.
    I appreciate this opportunity to testify on this important 
issue. As you said, I am president of the Missouri's Victims 
Assistance Network here in Missouri. An acronym for that is 
MoVA, and we'll use that from time to time. I was the founding 
Board member, and served as cochairperson of MoVA when it was 
organized in 1984, so we've been around awhile.
    MoVA is a statewide organization, and its membership 
represents 105 victim service agencies, including the State 
Prosecuting Attorney's offices, law enforcement, rape crisis 
centers, domestic violence shelters, Mothers Against Drunk 
Drivers, Parents of Murdered Children, and general not-for-
profit agencies.
    MoVA members drafted the Missouri's Crime Victims' 
Constitutional Amendment, which went before the Missouri 
legislature and was passed in 1991. In 1992, the voters of 
Missouri passed the amendment by the largest majority of any 
amendment in the history of the State of Missouri: 86 percent. 
So, it's a very important issue to the voters in the State of 
Missouri.
    And I feel if we get the right amendment before the U.S. 
Congress, we'll have an equal passage by the ratification of 
the States. I understand that Senate Joint Resolution--we'll 
refer to as the Constitutional Amendment for Crime Victims--is 
pending before the Senate.
    This testimony is meant to inform you that MoVA does not 
support that amendment in its current form. We feel that S.J. 
Res. 3 is too exclusive as currently written. Those who want to 
limit this amendment to only those who are victims of violent 
crime, we feel those folks are well-meaning, and we feel 
probably some of the rationale is similar to what we heard in 
the State of Missouri, that ``An overall inclusive amendment 
would inundate the criminal justice system, slow down the 
cases, thus further harming crime victims.''
    I haven't been able to find an accurate source in the State 
of Missouri to accurately reflect all the crime victims. I went 
to the publication put out by the Missouri Highway Patrol which 
just lists index crimes, and index crimes only include eight 
crimes, but I kind of wanted to give you a feel for those 
crimes. Like I said they still leave out a lot of crimes.
    The index crimes include only eight crimes: murder, 
forcible rape, robbery, aggravated assault, burglary, theft, 
motor vehicle, and arson. As you can tell by the list, it 
includes only crimes in which there are victims, and even that 
list is limited.
    There were 245,909 total index crimes in 1997, which is the 
latest year that's available for those figures. Violent crimes 
accounted for 28,962 or roughly 11.7 percent of all crimes in 
the State of Missouri.
    Therefore, the victims of 11.7 percent of all crimes would 
have the rights granted under S.J. Res. 3 as it's currently 
written. The other 88.3 percent would not have those rights, 
those rights including: reasonable notice of, and not to be 
excluded from any public proceedings relating to the crime; the 
right to be heard and present and submit a statement at all 
such proceedings to determine a conditional release from 
custody, acceptance of a negotiated plea or sentence;
    the foregoing rights of parole hearings that is not public 
to the extent that these rights are afforded the convicted 
offender; to reasonable notice of a release or escape from 
custody related to crime; to consideration of interest of the 
victim that any trial be free from unreasonable delay; to an 
order of restitution from the convicted offender; and to 
consideration for the safety of the victim when determining any 
conditionable release from custody relating to the crime.
    That's what's currently in S.J. Res. 3. But, again, it's 
limited only to the victims of violent crime.
    Let me share with you some of Missouri's experience since 
our Crime Victims' Constitutional Amendment passed, and our 
Crime Victims' Constitutional Amendment isn't all inclusive. 
It's noted as being one of the stronger Constitutional 
amendments in the United States.
    Let me start off by saying my position as president of MoVA 
is a volunteer position. My full-time position, the one in 
which I make my living at, is Director of the Victim/Witness 
Services for the Buchanan County Prosecuting Attorney's Office, 
which is the state's attorney.
    My staff viewed all the cases prosecuted by our office, and 
I'll share some of those results with you. Thirty-nine percent 
of all cases filed by our office involve an identifiable victim 
other than the State of Missouri. Thirty-nine percent of all 
cases filed by our office have identifiable victims other than 
the State of Missouri.
    Victims representing 13.6 percent of all cases filed 
participate by requesting to be informed or be present at court 
proceedings. OK, of all cases, only 13.6 percent request the 
rights or are required under ours, because if it's a case 
that's a dangerous felony, which is a more serious violent 
crime, they are to be afforded those rights automatically.
    Senator Ashcroft. May I just ask, is it 13.6 percent of the 
39 percent?
    Mr. Ashlock. No, it's 13.6 of all the crimes.
    Senator Ashcroft. So, it's about a third of the crimes with 
which you can associate a victim?
    Mr. Ashlock. Yes. About a third of the crimes in which we 
file charges, about a third of them have victims other than the 
State of Missouri
    Senator Ashcroft. But I mean, is it 13 percent of the 39 
percent?
    Mr. Ashlock. No, 13 percent of----
    Senator Ashcroft. 13 is a third of 39, that's what you are 
saying?
    Mr. Ashlock. That's right.
    By Missouri statute, notification is mandated to all crime 
victims--all victims of what we call dangerous felonies. 
Violent crime requiring crime notification in our office 
account for only 5 percent of the crimes that are filed by our 
office. Again, that's 100 percent of all crimes that are filed.
    You will note in my written testimony, I've included a copy 
of a checkoff form that we send to all crime victims when cases 
are filed, to make it easy on them if they want to be notified, 
if they want to be present and so on. All they have to do is 
check this off, and we will provide a stamped, self-addressed 
envelope for them to send it back in.
    We make it as easy as possible for them, and still we're at 
that 13.6 percent who elect to participate. I've surveyed other 
prosecutors' offices in the State, and the highest percentage 
that I can find of any prosecutor's office was about 20 percent 
of the victims who want to participate in the system at that 
time.
    Today is the last day of National Victims' Rights Week. 
This year's theme is ``Victims Voice Is Silent No More.'' If 
S.J, Res. 3 is passed in its current form, a vast majority of 
crime victims will continue to be kept silent by the very 
justice system which is supposed to act in their behalf.
    The second argument that extending victim rights will slow 
down the system is also false. Our experience has shown that 
those 13.6 percent to 20 percent of all crime victims choosing 
to participate, as long as they have been properly notified has 
not slowed down our system at all. And I kind of wish we had 
more witnesses here. We could bring in some of our judges to 
testify to that, too. It does not slow down the system.
    Another issue MoVA feels the Subcommittee should consider, 
which is lacking in S.J. Res. 3, is recourse. MoVA's amendment 
also lacks recourses. Large jurisdictions in Missouri have 
implemented, if not all, a majority of the Crime Victims' 
Constitutional amendment. But there are still some individual 
prosecutors, judges, and juvenile courts that ignore the 
amendment that the statutes mandate in the State of Missouri. 
The worst offenders are the third and fourth class counties, 
the rural areas.
    In 1997, MoVA, with the assistance of the Department of 
Corrections, conducted a survey of victims of violent crime, 
and the status of victims' participation in the criminal 
justice system since the passage of Crime Victims' 
Constitutional Amendment. Of all those surveyed--all those 
surveyed were victims of violent crime. The results of this 
survey indicated that the change since the implementation of 
the Constitutional Amendment was so slight that the researchers 
could not rule out that it occurred only by chance.
    Until Missouri enacts legislative recourse measures, 
criminal justice officials who currently deny the 
Constitutional rights will continue to do so. Do not make the 
same mistake that we did here in Missouri, by not including 
recourse for crime victims.
    It's cruel to tell crime victims they have rights, but to 
continue to deny them. I've also included as an attachment a 
copy of the research from our office so you can see the type of 
crimes and so on that we deal with. Thank you.
    Senator Ashcroft. Well, thank you very much for your 
contribution to our awareness of this issue in two areas: one, 
in terms of the breadth of the criminal activity covered, and 
second, in terms of the enforceability of any item, which you 
call recourse, which I think is appropriate.
    Next, we have Kim LeBaron, who is executive director of the 
Victims Support Services in Kirksville, MO. Her organization 
provides assistance to victims of domestic abuse. I'm pleased 
to have Ms. LeBaron here today, and to welcome her insights 
into how we should be dealing with victims' rights in the 
context of domestic abuse.
    Ms. LeBaron.

                    STATEMENT OF KIM LEBARON

    Ms. LeBaron. Thank you, Senator. I'm speaking to you today 
as a person who has dealt with the effects of domestic violence 
for all of her life. I grew up in a family where domestic 
violence was a daily part of our living. I am very lucky 
because domestic violence was not a generational part of my 
family history.
    My mother had the knowledge to impart to me that living 
with the fear our family lived with was not my only choice. I 
have not repeated or continued the cycle of violence in my own 
family, but I have chosen this to be my life's work.
    I work at Victims Support Services in Kirksville, MO. Our 
agency, located in the northeast part of the State, serves 
seven rural counties, and has been serving all victims of 
violent crime, including domestic violence and sexual assault, 
for over 10 years.
    Every single day, I talk with women and children about 
their lives and living in fear, living with that fear in their 
own homes. I think all of us would agree, the one place you 
should feel safest and most cared for is in our own homes. In 
our society, we have come to recognize that domestic violence 
is something that can happen to anyone. It knows no 
discrimination.
    What we haven't achieved is a consistent way for these same 
victims to have a voice that is heard. Victims have voices that 
can offer us much needed insight to changes that must happen 
within our system. They want to feel that justice will have a 
positive effect on their situation.
    I look at what we're doing in northeast Missouri, and I 
know that it is not enough. We have many supporters of our 
program, both from the professional sector and private 
citizens. This is not enough. We must have laws that protect 
victims of violent crimes and assure them they will receive 
fair and equitable treatment under Federal law. Laws that will 
not make them feel like they're the least important part of the 
criminal justice system.
    I have yet to meet a victim of violent crime who ever 
expected to find themselves with this label. This also includes 
every victim of domestic violence. Even when I interview women 
who have long histories of violence, where they can tell about 
several generations of abuse, they will tell me that they truly 
believed their life would be different.
    They are disappointed by their reality. I feel it is 
imperative that we treat all crime victims consistently with a 
professional and caring approach. No matter what the crime is, 
including domestic violence, no one deserves or asks to be a 
victim.
    I recently worked with a victim who applied for and 
received an ex parte order against her husband. She requested 
the city marshal to accompany her to her home to retrieve some 
uniforms so she could continue to work. When they arrived at 
her home, they found the husband there.
    He proceeded to threaten to kill her and to kill every 
other person in the shelter to get their daughter back. He went 
into great detail about the plan he wanted to implement. The 
city marshal told the victim he didn't know what to do about 
the threats because he didn't have much experience with these 
types of situations.
    Fortunately, a State highway patrol officer stopped at the 
scene and arrested the man for violation of his ex parte order 
and assault. He then was transported to a county jail where he 
was released until Wednesday because the judge was out of town. 
This happened on a Saturday evening.
    This man who was so angry, who threatened to kill several 
people in the presence of two law enforcement officers, was 
immediately released from custody and told to wait until 
Wednesday to be officially arrested. This caused us to move 
this client to another shelter 90 miles away, and hire two off-
duty police officers to stay in the shelter for protection of 
our other clients and staff.
    Then, on the day there should have been a hearing regarding 
this violation and assault charge, no witnesses were 
subpoenaed, including our client. I went to court to observe, 
and it was quite clear the intent was just to dismiss this 
case.
    There was no notification given to this victim regarding 
any part of this criminal justice process, even though the 
prosecutor was notified in writing that this victim wanted to 
be notified. This batterer received a very clear message to 
continue conducting his business as usual.
    I live in a rural area where everybody knows everybody, so 
there often is much disbelief that John Doe could hurt his 
family, or there is a general laissez faire attitude with 
people saying things like oh, he can't help it, he's just like 
his dad. They're reluctant to agree to testify during 
prosecution because everybody knows nothing will happen.
    In my city, fewer than 25 percent of domestic cases where 
charges were brought were disposed of in 1998. In the majority 
of these cases, the defendant received a suspended imposition 
of sentence or 1 to 2 years of unsupervised probation. The most 
severe sentence received was 30 days incarceration in the 
county jail.
    The message that domestic violence is a violent crime must 
be clear to all people and the remedies available under the law 
be afforded to all victims, even when they live in rural areas. 
They must be treated consistently with laws that will ensure 
all levels of our judicial system will respond in a timely and 
just manner.
    I not only believe that we need the Constitutional 
amendment, but it must also contain the proper language to 
ensure victims that if they are not being afforded their rights 
in the judicial system, there is a process to hold those who 
violate their rights accountable for their indifference. I 
would urge you to consider that a very clear penalty be 
included so victims who are revictimized will be offered 
relief.
    In closing, I find it difficult to find words that are 
powerful enough to convey to you how strongly victims feel 
about their need to be treated fairly and consistently within 
the judicial system. Just as important, they need to be treated 
with the dignity and respect that would be afforded to them by 
this Constitutional amendment. Thank you.
    Senator Ashcroft. Well, thank you very much. The ideals of 
fairness and consistency I think are very important in the 
sense that we all want to be able to understand that we are 
part of the rule of law, and that it is not capricious. Any 
disparity between rural and urban settings would be similarly 
unnerving.
    Thank you for your testimony.
    Joe Taylor is the president of the Board of Aid for Victims 
of Crime. He's a partner of the Taylor and Taylor law firm, 
which represents victims of crime.
    Aid to Victims of Crime is one of the oldest not-for-profit 
organizations helping victims in the Nation, and we're grateful 
for your appearance here. Thank you for your willingness to 
come and help us better understand how we might address these 
issues.

                    STATEMENT OF JOE TAYLOR

    Mr. Taylor. Thank you, Senator.
    I'm proud to be here this morning representing an 
institution that has helped thousands of people regain dignity 
they lost due to a criminal act.
    Aid For Victims of Crime was the first victims assistance 
program founded in this country. Carol Vittert, our founder and 
current Board member, began what is now known as Aid for 
Victims of Crime by gathering daily police reports from local 
law enforcement. She and other volunteers would go knock on the 
doors of crime victims, reaching out to their needs.
    Aid for Victims of Crime now plays an integral role in 
victims services locally, regionally, State, and nationwide. 
Each year AVC serves between 1,500 and 2,000 victims of crime 
in the St. Louis area. The range of services available is so 
broad, and often requiring improvisation, they cannot be 
sufficiently cataloged in this forum.
    However, by way of example, I would like to describe how 
AVC responded to two victims who called the agency for help. 
These illustrations are relevant to the hearing this morning as 
they involve victims of nonviolent crime.
    A woman in her 30's, a professional woman, contacted AVC 
after her home was burglarized. AVC staff went to her house 
with plywood and nails to temporarily secure the broken window 
through which the intruder entered. Staff noticed that the 
victim was physically shaking as if she had been victimized by 
violent crime.
    AVC staff offered her services as if she had been 
victimized by violent crime. The victim told Ed Stout, our 
executive director, that this invasion was the closest thing to 
her being raped as she ever could imagine experiencing.
    In another instance, an educated woman and neighborhood 
leader from North St. Louis was cheated out of several thousand 
dollars by two men who talked her into investing in a ``no-
lose'' situation. She almost immediately realized she had been 
deceived and reported the crime. During the ensuing criminal 
prosecution, Aid for Victims of Crime staff pursued restitution 
on her behalf.
    The victim did not know she might be entitled to such a 
remedy, but due to the embarrassment and guilt she felt for 
allowing herself to be so deceived, she probably would have 
never asked to what, if anything, she was entitled.
    Regionally, AVC staff initiated and now actively correlates 
a three-county crises response team that organized services of 
20 agencies when responding to crises in the workplace, in 
neighborhoods, and in corporations of all sizes. This crisis 
response team supplied valuable services to help our community, 
the campus of Washington University, and family members deal 
with the trauma of Melissa Aptman's brutal murder and her 
friend's abduction and unspeakable attack in May 1995.
    The same crisis response team also responded to the 
suffering of St. Louis employees of TWA in the aftermath of the 
crash of Flight 800 en route to Paris in 1996.
    Statewide, AVC participated and is active in the MoVA, the 
Missouri Victims' Assistance Network, which has been 
instrumental in making victims part of the criminal justice 
system, rather than an appendage to the system. MoVA, as was 
already testified to, was integral in supporting and passing 
the 1992 amendment to the Missouri Constitution guaranteeing 
rights in this State.
    Finally, nationally, AVC have been active and well 
represented on the Board of NOVA, the National Organization for 
Victims' Assistance. NOVA's accomplishments are just too 
numerous to address here today.
    I would like to recognize Ed Stout, our Executive Director, 
for his never-ending efforts to restore dignity to all those 
victimized by crime.
    Senator Ashcroft. Is Mr. Stout here?
    Mr. Taylor. He is not able to be with us today. He is out 
of town.
    Senator Ashcroft. If he were, I would have asked him to 
stand up.
    Mr. Taylor. Right. If asked, few, if any, would report 
being against victims' rights in theory. There are many, 
however, that oppose extending Constitutionally recognized 
rights to victims of nonviolent crimes for fear that the 
already overloaded criminal justice system would grind to a 
halt if these victims were allowed to participate and to 
receive reasonable notice of criminal proceedings.
    This attitude is often heard by victims of nonviolent 
crimes as the system telling them, of course we support 
victims' rights, as long as they don't get in our way. The 
uncomfortable truth, however, is that this attitude adds to the 
trauma already suffered by the victim. All too often, the 
victims of nonviolent crime suffer the same type and intensity 
of trauma as those victimized by rape, robbery, and assault.
    These victims will perceive the crime against them as life-
threatening. Burglaries, for instance, can shatter the family 
fabric. Their victims are infused with feelings of 
vulnerability and fear for years beyond the actual crime. 
``What if'' questions overflow their thoughts. What if my 
family had returned home too early? What if they come back?
    How many times have we heard of the devastation caused by 
the likes of telemarketing fraud committed against our elderly, 
as you spoke of earlier? These crimes go far beyond the 
financial losses alone.
    The victims' fears must be heard over those whose fears are 
simply an inconvenience to our justice system. Fundamental 
rights do not come free. Ask anyone who has ever fought for the 
right to vote or for the right to simply be free of oppression. 
Rights do not come without pain and sacrifice.
    Moreover, those anxious individuals opposed to guaranteeing 
the rights of all victims are not considering the success in 
those States that have. Reports from the States where victims' 
rights amendments have been implemented show that the system is 
not bogged down as a result. And, in fact, the system may 
become more efficient because those victims whose rights are 
being honored are inherently going to be more cooperative and 
responsive to the system's needs.
    A constitutional amendment is not taken lightly by our 
Government or by those governed. Victims of all crimes have 
earned basic fundamental rights, and victims of nonviolent 
crime represent over 80 percent of all crime victims.
    If we only guarantee those rights for the vast minority of 
crime victims, we will only engender a greater lack of respect 
for the criminal judicial system by those precluded from 
participation. Thank you.
    Senator Ashcroft. Thank you very much.
    Senator Ashcroft. Our next witness is Joseph Bednar. Mr. 
Bednar is the chief counsel for the Governor of Missouri.

                   STATEMENT OF JOSEPH BEDNAR

    Mr. Bednar. Good morning, and thank you, Senator, for 
inviting me to testify.
    My name is Joe Bednar, chief counsel for Governor Mel 
Carnahan. Before that I was an attorney in private practice. 
I'm also the former chief assistant prosecutor in Jackson 
County. In recent news accounts, your spokesman has raised a 
question about the status of Missouri victims' rights laws.
    I'm pleased to be here today to update you and your 
committee on the status of our law. It is important to remember 
that for every crime, there is a victim who will feel the 
crime's impact for a long time to come. Governor Carnahan 
recognizes the importance with the aftermath of crime and with 
helping victims recover. Working with the law enforcement 
community and the advocates for victims, we have made a 
tremendous amount of progress on the behalf of crime victims.
    In 1993, the Governor supported and signed into law House 
bill 476 and Senate bill 19. House bill 476 increases 
protection for victims of stalking and makes stalking a crime. 
Senate bill 19 expands the rights of victims, including the 
right to more information: About the crime, about charges filed 
against the offender, hearing dates, court dates, sentencing 
and probation revocation hearings, and commutation.
    In 1994, the Governor supported and signed into law Senate 
bill 554, which extended victims' rights to include the rights 
to be notified and present at each and every phase of parole 
hearings. In 1995, House bill 174 and House bill 232 were 
signed and supported by the Governor. House bill 174 increased 
the amount a crime victim could receive for counseling.
    House bill 232 requires the courts of Missouri to honor 
adult protective orders issued in other States and registered 
in Missouri. The Governor also supported and signed House bill 
104 in 1997, which expanded the statute of limitations for 
sexual offenses against people under the age of 18 to 10 years 
after the victim reaches the age of 18. In 1998, the Governor 
supported and signed House bill 1405, House bill 1918, and 
Senate bill 722.
    House bill 1405 mandates that the Attorney General inform 
victims of sexually violent offenses of all actions regarding 
civil commitments of sexually violent predators. Senate bill 
722 prohibits insurers from discriminating against victims of 
domestic violence. House bill 1918 establishes a minimum 
sentence for persons proven to be prior or persistent domestic 
violent offenders, and allows the admissions of prior 
convictions into order to demonstrate a history or pattern of 
domestic violence.
    Governor Carnahan has also taken administrative actions 
that has focused much needed attention on victims' rights. 
Under the Governor's direction, the office of Victims' Service 
Coordinator to provide services, notification and information 
to victims of crime in Missouri. And even though no action is 
required by law for victims of crimes that occurred prior to 
1991, our Corrections Department went through 21,000 of those 
pre-1991 files and contacted the prosecuting attorneys across 
the State to seek information on those victims.
    Ours is one of only three States that actively seeks out 
victim information. Legally, victims of dangerous felons are 
supposed to be notified of certain information regarding 
offenders. However, the law allows States to play a rather 
passive role in how it obtains the names of the victims. In 
Missouri, we actively seek to identify victims by sending 
inquiry letters to prosecutors.
    This year, the Carnahan administration invested the largest 
amount of funds in our States' history for services that 
support crime victims. That funding represents a 230 percent 
increase since 1992. Also, the Carnahan administration was the 
first to dedicate general revenue funds for services for 
domestic violence victims, funds that you vetoed during your 
term.
    In fact, our efforts to assist the families of crime 
victims date back to January 1993, when the Board of Probation 
and Parole made the first effort to contact the family members 
of two homicide victims. You may not recall the details, 
Senator, but you commuted the sentences of the defendants in 
those two cases, yet made no effort to contact the families of 
those victims. You and your staff are quick to point out our 
deficiencies in this area, but you did the exact same thing as 
Governor.
    The only difference, Senator, is that we made the effort. 
We didn't know they existed. We tried to contact them. We tried 
to find out if there were relatives; we were told there were 
none. It was a human error. I say this not because I want to be 
here to take you or anyone else to task for this. We are all 
imperfect human beings.
    I say it because it's obvious that you created this forum 
not so much to learn about the needs of crime victims, but for 
the purpose of exploring a controversial decision and related 
human error by the Carnahan administration to further your own 
reelection campaign. I believe it is not only unjust and 
inappropriate, but it is also a disservice to the cause of 
crime victims' rights, which I personally worked on for 26 
years and continue to work on today.
    Let me address the Mease and Lawrence case. Specifically, 
Governor Carnahan believes very strongly that victims' families 
need to be notified, and they were not, in this instance, 
solely because of human error, not because the law didn't 
require it.
    On behalf of the Governor, I apologized to the family 
members I could reach the day after the commutation, and I 
apologize again today. This is especially troubling to me. As a 
former prosecutor, I was an advocate for the victims of crime, 
and I made victims advocacy a priority during my time in 
Jackson County. We deeply regret the mistake and are committed 
to ensuring that it never happens again. Thank you for the 
opportunity to testify.
    Senator Ashcroft. Our next witness is Professor Cassell, 
Professor of Law at the University of Utah College of Law, and 
very active in working for Federal protection for victims. He 
has worked closely with Senators Kyl and Feinstein on their 
proposed Amendment, and has testified numerous times in support 
of the Amendment.
    Professor Cassell is testifying here at the request of both 
Senator Kyl of Arizona and of me, and I would like to welcome 
Professor Cassell to the St. Louis area and welcome his 
testimony at this time.

                   STATEMENT OF PAUL CASSELL

    Mr. Cassell. Thank you, Mr. Chairman. I am pleased to be 
here on behalf of the National Victims' Constitutional Network, 
which is an umbrella organization of victims' groups around the 
country that are concerned with the Constitutional protection 
of victims' rights.
    Senate Joint Resolution 3 is strongly supported by the 
great bulk of network's members, including some of the Nation's 
oldest and most prominent crime victims organizations; members 
such as the National Organization for Victims' Assistance, 
Mothers Against Drunk Driving, and Parents of Murdered 
Children.
    Now, in possible contrast to the previous speaker, we very 
much appreciate the Chairman setting up this forum, 
particularly in this historic building, and indeed on this very 
day. May 1, as the Senator may know, is Law Day, the day 
Congress has set aside to reflect on the way in which our legal 
system works.
    And today, unfortunately, while our Federal Constitution 
contains numerous rights for those who commit acts of violence, 
it contains no rights for those who have been victimized. 
Around the country, there is a growing appreciation of that 
imbalance and the need to remedy it. We need to do something--
or do something for victims of crimes.
    Thirty-one States, including the State of Missouri, have 
amended their own State constitutions to protect the rights of 
crime victims, and every State has adopted statutes extending 
some form of protection to victims. Now, victim participation 
in the criminal justice process serves a number of important 
interests: Crime victims can provide criminal justice 
decisionmakers with important information about the full extent 
of the damage from criminal violence.
    Victim participation can often have important cathartic 
effect, helping victims move forward with their lives after the 
devastation caused by crime. Anita Lawrence, for example, I 
thought this morning put it well when she talked about how 
proper participation can help victims close the book on one 
chapter in their lives and move forward.
    And finally, allowing victims to participate is consistent 
with our ideas of fundamental justice. As President Clinton put 
it in endorsing the Federal Victims' Rights Amendment, when 
someone is a victim, he or she should be at the center of the 
criminal justice process, not on the outside looking in.
    Now, one question about victim participation that has 
apparently arisen recently is the extent to which crime victims 
should participate in and be notified of executive clemency 
decisions. I don't want to comment on the specifics of any 
commutation decision, but instead try and step back and provide 
a more objective view as to how victims should be integrated 
into the clemency process.
    I think earlier this morning, Chairman Ashcroft, you hit 
the nail on the head when you said that given the widespread 
recognition of the importance of victim participation in 
earlier stages of the process, that it makes no sense to deny 
them the opportunity to be involved at the ultimate step in the 
process. Throughout this Nation, States have tried to make--
ensure that victims can have a say before a defendant is 
released on bail or given an unduly lenient plea bargain.
    States have also tried to make sure victims can attend 
trials to see that justice is being served. And victims 
throughout the country now have an opportunity to provide a 
victim impact statement when an offender is sentenced or when a 
possible parole is being considered. Given all these efforts to 
involve victims from the start of the criminal justice process, 
it makes no sense to exclude them from the last step, a 
Governor's decision to grant or not to grant a prisoner's 
application for clemency.
    Victims deserve the right to be heard at this stage, not to 
have a veto over the Governor's decision, but rather to provide 
a voice, to provide information about the full harm of the 
crime that the Governor can consider in reaching his or her 
decision. Similarly, victims deserve to be notified of any 
decision the Governor might reach so that they are not 
surprised and traumatized by unexpectedly learning of a 
commutation. No family should be ambushed by a decision, as 
Retha Lawrence so eloquently put it this morning.
    Now, many States, particularly in recent years, have passed 
statutes that requiring that victims be informed of clemency 
applications, and be given a fair opportunity to comment on 
them. Along these lines, it may well be desirable to amend 
Senate Joint Resolution 3 to extend these rights to victims, 
and my prepared testimony providing some possible language for 
doing just that.
    Senate Joint Resolution 3 already contains an extensive 
list of rights for crime victims, including the right to be 
notified of court and parole proceedings, and to be heard at 
appropriate points in the process. These are rights not to be 
victimized again through the process by which Government 
officials prosecute, punish, and release accused and convicted 
offenders.
    These are the very kinds of rights with which our 
Constitution is typically and properly concerned. Rights of 
individuals to participation in all those governmental 
processes that strongly affect their lives. Now as you would 
expect with the proposed Federal Constitutional Amendment, 
Senate Joint Resolution 3 is a product of consensus; it's 
crafted to try to attract the super majority that will be 
necessary in Congress to send the measure to the States.
    For example, Senate Joint Resolution 3 extends rights to 
victims of crimes of violence a narrower formulation than when 
first introduced. It is important to understand that crimes of 
violence, as used in Senate Joint Resolution 3, is a broad 
phrase that includes crimes with the potential for violence. 
For example, courts have frequently held that burglaries of 
homes are crimes of violence because of the potential for armed 
or dangerous conflict.
    And thus, Senate Joint Resolution 3 would cover one of the 
situations that Mr. Taylor talked about earlier this morning, 
and also, Mr. Ashlock's numbers may need to be revised slightly 
to reflect the definition used in Senate Joint Resolution 3 is 
somewhat broader than narrower definitions used by other 
criminal justice agencies. Now, of course, in considering this 
issue, we cannot rely simply on numbers. Some crimes have more 
serious consequences than others, as the testimony from Carol 
Angelbeck, Mata Weber, and the Lawrence family this morning 
eloquently demonstrated. Violent crimes cover the vast bulk of 
cases in which victims' rights seriously are at issue.
    The National Organization for Victims' Assistance, 
mentioned by Mr. Taylor, mentioned, for example, has estimated 
for of the thousands of calls that come in to its toll free 
800-number every year, more than 95 percent are from victims of 
violence. Now to be sure, it would be desirable to extend 
Senate Joint Resolution 3 that extra 5 percent to cover those 
crimes beyond those of violence.
    But here it's important not to let the perfect become the 
enemy of the good. It appears that insisting on coverage of all 
crimes will destroy the consensus that surrounds Senate Joint 
Resolution 3 and prevent the passage of any Constitutional 
amendment.
    The better course, obviously, is to pass Senate Joint 
Resolution 3, which will protect the rights of violent crime 
victims and improve the climate in the criminal justice system 
for all victims. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cassell follows:]
    [GRAPHIC] [TIFF OMITTED] T3523.001
    
    [GRAPHIC] [TIFF OMITTED] T3523.002
    
    [GRAPHIC] [TIFF OMITTED] T3523.003
    
    [GRAPHIC] [TIFF OMITTED] T3523.004
    
    [GRAPHIC] [TIFF OMITTED] T3523.005
    
    [GRAPHIC] [TIFF OMITTED] T3523.006
    
    [GRAPHIC] [TIFF OMITTED] T3523.007
    
    [GRAPHIC] [TIFF OMITTED] T3523.008
    
    [GRAPHIC] [TIFF OMITTED] T3523.009
    
    [GRAPHIC] [TIFF OMITTED] T3523.010
    
    [GRAPHIC] [TIFF OMITTED] T3523.011
    
    [GRAPHIC] [TIFF OMITTED] T3523.012
    
    [GRAPHIC] [TIFF OMITTED] T3523.013
    
    [GRAPHIC] [TIFF OMITTED] T3523.014
    
    [GRAPHIC] [TIFF OMITTED] T3523.015
    
    [GRAPHIC] [TIFF OMITTED] T3523.016
    
    [GRAPHIC] [TIFF OMITTED] T3523.017
    
    [GRAPHIC] [TIFF OMITTED] T3523.018
    
    [GRAPHIC] [TIFF OMITTED] T3523.019
    
    [GRAPHIC] [TIFF OMITTED] T3523.020
    
    [GRAPHIC] [TIFF OMITTED] T3523.021
    
    [GRAPHIC] [TIFF OMITTED] T3523.022
    
    [GRAPHIC] [TIFF OMITTED] T3523.023
    
    [GRAPHIC] [TIFF OMITTED] T3523.024
    
    [GRAPHIC] [TIFF OMITTED] T3523.025
    
    [GRAPHIC] [TIFF OMITTED] T3523.026
    
    [GRAPHIC] [TIFF OMITTED] T3523.027
    
    [GRAPHIC] [TIFF OMITTED] T3523.028
    
    [GRAPHIC] [TIFF OMITTED] T3523.029
    
    [GRAPHIC] [TIFF OMITTED] T3523.030
    
    [GRAPHIC] [TIFF OMITTED] T3523.031
    
    Senator Ashcroft. Well, let me thank all of you for coming 
and for adding your voices to what I think is a near unanimous 
understanding that a federal amendment to protect the victims 
of crime would be helpful.
    Professor Cassell, are there times when the state 
amendments and the State provisions come into conflict with 
Federal laws that result in, basically, the evisceration of the 
State's efforts. Does that provide a basis for requiring the 
additional protection of a uniform Federal Amendment to the 
Constitution?
    Mr. Cassell. What we've seen--and I say ``we'' as victim 
advocates--is the situation recurring over and over again that 
a defense attorney or defendant will make some claim that I 
have a Federal right to Due Process, and therefore, you can't 
do whatever the victim is requesting. In my view, those 
conflicts are illusory, that there is really no zero sum gain 
here.
    We can give rights to victims and give rights to 
defendants, and Senate Joint Resolution 3 does not take rights 
away from criminal defendants. The problem, however, is that 
because of this perceived conflict and the certain imbalance 
that you mentioned, that defendant's rights are here in the 
Federal, while victims rights are, at best, down here in the 
State Constitutions, that defendant's rights have been trumped 
and created problems of enforcement throughout the country.
    Senator Ashcroft. Mr. Ashlock, have you had any problems 
like that here?
    Mr. Ashlock. I have not seen any conflicts with Federal 
laws. We enjoy a good relationship in our little corner of the 
state up there.
    Senator Ashcroft. Do defense attorneys ever object to the 
presence of a victim in a room while other testimony is 
undertaken?
    Mr. Ashlock. In our jurisdiction when they've objected, the 
judges have overruled. But in other jurisdictions of the state, 
victims sometimes are continued to be kept out of the 
courtroom.
    Senator Ashcroft. Ms. LeBaron, I see you nodding your head 
on this.
    Mr. Ashlock. It's not by statute; it's by rule of the 
Court. Our stand is, the Constitution is a little higher than 
the rule of the Court.
    Ms. LeBaron. We had that happen this week in a murder trial 
that was going on in Kirksville. They subpoenaed the mother of 
the murdered victim, and she was unable to be in the courtroom 
for a period of time, so we see it happening.
    Mr. Ashlock. In our experience, we've had it happen, 
there's not been a problem; there's not been someone who has 
complained afterwards that the victim witness was able to use 
what they heard in the courtroom, which is always the complaint 
for barring witnesses out of the courtroom. So we just haven't 
had a problem with that happening. And as I said, it's our view 
of it that that's included in our Constitutional Amendment.
    But there are some jurisdictions in the state of Missouri 
that continue to keep victims out, and oftentimes, what we 
found, prior to Constitutional Amendment and even now, is that 
you've got defense attorneys subpoenaing someone they have 
absolutely no hope of calling as a witness; they just don't 
want them in the courtroom.
    Senator Ashcroft. I want to thank you all for coming today. 
I believe that today's hearing will be extremely helpful to the 
Subcommittee, and to the Judiciary Committee as a whole as we 
proceed to mark up the proposed Amendment in the few days that 
are coming ahead.
    This morning's hearing demonstrates to me both the need for 
a Federal role in the protection of victims' rights, as well as 
some ways that the present proposal may be improved. So, I 
thank you for your participation, and I now adjourn the meeting 
of the Subcommittee.
    Thank you.
    [Whereupon, the subcommittee was adjourned.]

                                <greek-d>



</pre></body></html>
